<html>
<title> - H.R. 2301, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO CONSTRUCT A BRIDGE ON FEDERAL LAND WEST OF AND ADJACENT TO FOLSOM DAM IN CALIFORNIA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 H.R. 2301, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO CONSTRUCT A 
     BRIDGE ON FEDERAL LAND WEST OF AND ADJACENT TO FOLSOM DAM IN 
                              CALIFORNIA
=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 10, 2002

                               __________

                           Serial No. 107-100

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov







                           U.S. GOVERNMENT PRINTING OFFICE
78-630                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                       Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
            ADAM SMITH, Washington, Ranking Democrat Member

 Richard W. Pombo, California        George Miller, California
George Radanovich, California        Peter A. DeFazio, Oregon
Greg Walden, Oregon,                 Calvin M. Dooley, California
  Vice Chairman                      Grace F. Napolitano, California
Michael K. Simpson, Idaho            James P. McGovern, Massachusetts
J.D. Hayworth, Arizona               Hilda L. Solis, California
C.L. ``Butch'' Otter, Idaho          Brad Carson, Oklahoma
Tom Osborne, Nebraska
Jeff Flake, Arizona
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 10, 2002...................................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Doolittle, Hon. John, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Limbaugh, Mark A, Director, External and Intergovernmental 
      Affairs, Bureau of Reclamation, U.S. Department of the 
      Interior...................................................     5
        Prepared statement of....................................     6
    Miklos, Hon. Steve, Councilmember, Sacramento Area Council of 
      Governments, State of California...........................    21
        Prepared statement of....................................    23
    Niello, Hon. Roger, Supervisor, County of Sacramento, State 
      of California..............................................    15
        Prepared statement of....................................    17
    Roder, Aileen, California Water Project Coordinator, 
      Taxpayers for Common Sense.................................    18
        Prepared statement of....................................    20
    Starsky, Hon. Jeffrey M., Mayor, City of Folsom, State of 
      California.................................................     8
        Prepared statement of....................................     9

Additional materials supplied:
    Keys, John, Commissioner, Bureau of Reclamation, U.S. 
      Department of the Interior, Statement submitted for the 
      record.....................................................    29


 H.R. 2301, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO CONSTRUCT A 
     BRIDGE ON FEDERAL LAND WEST OF AND ADJACENT TO FOLSOM DAM IN 
                  CALIFORNIA, AND FOR OTHER PURPOSES.

                              ----------                              


                       Wednesday, April 10, 2002

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 1334, Longworth House Office Building, Hon. Ken Calvert, 
[Chairman of the Subcommittee] presiding.

  STATEMENT OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Good afternoon. The Subcommittee on Water and 
Power will come to order.
    If there is no objection, Mr. Doolittle will join us for 
this hearing.
    [No response.]
    Mr. Calvert. Hearing none, welcome.
    The Committee is meeting today to hear testimony on H.R. 
2301 to authorize the Secretary of Interior to construct a 
bridge on Federal land west of and adjacent to Folsom Dam in 
California, and for other purposes. Under Rule 4(b) of the 
Committee Rules, any oral opening statements at hearings are 
limited to the Chairman and the Ranking Minority Member. But in 
this case--Mr. Doolittle's bill--I am sure we will allow him 
for his opening statement. If other members have statements, 
they can be included in the hearing record, under unanimous 
consent. I will start my statement.
    Since the events of September 11th, 2001, we have all had 
to take a careful look at the way we conduct our business. This 
hearing provides an opportunity to look at a new American River 
crossing downstream of Folsom Dam to remove public traffic from 
the existing roadway which crosses the top of Folsom Dam.
    This is not the first situation where a roadway on the 
crest of a dam has to be moved to an alternate crossing. A 
public roadway on top of a dam makes it difficult for the 
operating agency to perform regular operation and maintenance 
activities on the facility while having to manage traffic. A 
roadway on top of a dam also raises concern for the security of 
that facility. However, we must consider these situations 
carefully, and use fiscal responsibility in providing authority 
for construction of alternative roadway facilities to remove 
public traffic from the dam crest.
    What is proposed by this legislation is the authorization 
of a new crossing below Folsom Dam, with major improvements to 
be paid for using Federal funds appropriated for the Bureau of 
Reclamation. Then, upon completion of construction, the entire 
new crossing and appropriate access easements are to be turned 
over to the city of Folsom.
    [The prepared statement of Mr. Calvert follows:]

Statement of The Honorable Ken Calvert, Chairman, Subcommittee on Water 
                               and Power

    Since the events of September 11, 2001, we have all had to take a 
careful look at the way we conduct our business. This hearing provides 
an opportunity to look at a new American River crossing downstream of 
Folsom Dam to remove public traffic from the existing roadway which 
crosses the top of Folsom Dam.
    This is not the first situation where a roadway on the crest of a 
dam has to be moved to an alternate crossing. A public roadway on top 
of a dam makes it difficult for the operating agency to perform regular 
operation and maintenance activities on the facility while having to 
manage traffic. A roadway on top of a dam also raises concern for 
facility security. However, we must consider these situations carefully 
and use fiscal responsibility in providing authority for construction 
of alternative roadway facilities to remove public traffic from the dam 
crest.
    What is proposed by this legislation is the authorization of a new 
crossing below Folsom Dam, with major improvements to be paid using 
Federal funds appropriated for the Bureau of Reclamation. Then, upon 
completion of construction, the entire new crossing and appropriate 
access easements are to be turned over to the City of Folsom.
                                 ______
                                 
    Mr. Calvert. So with that, I would like to introduce 
Congressman Doolittle, who is the former Chairman of the 
Subcommittee on Water and Power, and who introduced this 
legislation. And as I indicated before, we ask unanimous 
consent that the Congressman be permitted to sit on the dais, 
and that is allowed. And with that, I will recognize Mr. 
Doolittle for his opening statement.

 STATEMENT OF THE HON. JOHN T. DOOLITTLE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. Mr. Chairman, thank you very much. I must 
say it is always a pleasure to come back to my old turf here. 
And I thank you for the courtesy you have extended to me to 
present this bill in this hearing; and furthermore, to join you 
up here on the dais.
    In this particular situation over this dam, as you know, 
Folsom Dam is one of the major dams in the state of California, 
and it is located in pretty much what you would have to 
describe as a suburban area now. And at the time it was built, 
that would have been somewhat true then; but dramatically more 
so now, as our area, which is said to be the fastest growing 
region in the state, continues.
    We have a number of cars moving each day--thousands of 
cars--across that bridge. And beginning in 1995, with the 
Oklahoma City bombing, that triggered a review of Federal 
facilities by the Government. And that review resulted in the 
recommendation that the traffic be taken off the bridge, just 
for the safety of the dam, since this dam is a major power 
generator for the region. It is the major flood control on the 
American River, protecting the downstream residents of 
Sacramento, hundreds of thousands of people. And it was just 
felt by the Government that it was too sensitive a facility to 
allow the traffic to remain.
    Then, of course, we had September 11th, when the 
significance of potential terrorist threats was dramatically 
hammered home to us again. The Director of Homeland Security as 
recently as last October, speaking to the National Conference 
of Cities here in Washington, listed this as one of their top 
dams that needed to be looked at and needed to have a separate 
bridge created so that the traffic could be taken off of it.
    This bill, as you pointed out, authorizes the construction 
of such a bridge. I feel very strongly that it should be the 
Federal Government. After all, it is a Federal dam. It is the 
protection of the dam that is of concern here. It is a facility 
that is nearly 50 years old, I believe.
    And prior to the construction of this dam, why, there were 
four river crossings, two-lane river crossings--four of them, 
over the river. Those are all under water now. So it would seem 
perfectly appropriate for me that if we are not going to be 
able to continue to move traffic across the dam, that the 
Federal Government owes us then the responsibility to provide a 
new bridge which could accommodate that traffic, relieve the 
security concerns on the dam, and generally enhance the region.
    I can't help but note that in addition to providing, of 
course, the flood control and the power, this dam and the 
900,000-acre-foot reservoir behind it is a vital component of 
the vast Central Valley Project authorized by Congress back in 
the 1930's. And therefore, there is a great deal of water at 
risk to provide the needs of the contractors throughout the 
Central Valley; to meet the environmental concerns downstream 
and through the Sacramento-San Joachim Delta; and, in general, 
to be available for the perpetuation of various species, 
endangered and otherwise.
    So I thank you, Mr. Chairman, for this opportunity. And I 
see you have assembled before you several of my constituents as 
witnesses. And I appreciate your giving them the opportunity to 
come here and share their views.
    [The prepared statement of Mr. Doolittle follows:]

   Statement of The Honorable John T. Doolittle, a Representative in 
                 Congress from the State of California

    Mr. Chairman and members of the committee, today I ask for your 
support of H.R. 2301. This bill would authorize the Bureau of 
Reclamation (Bureau) to construct a new bridge and related connecting 
structures on federal land west of and adjacent to the Folsom Dam, 
which is located in my district.
    The project is essential to the people of Northern California for 
two main reasons: 1) Most importantly; it would greatly improve the 
safety and security of the entire region. 2) It would enhance the 
efficiency and convenience of the regional transportation system.
    Following its completion in 1956, the Folsom Dam included a two-
lane maintenance road on its top intended for the use of the Bureau. As 
a service to local drivers, over the years, the Bureau has allowed 
restricted use of the Folsom Dam Road to the public. In the decades 
since its construction, however, the growing communities both north and 
south of the crossing have come to depend on the dam road as an 
important transportation route. This has created numerous problems for 
both the Bureau and the public.
THREAT TO SECURITY
    In the aftermath of the 1995 Oklahoma City bombing, the federal 
government expressed increased concern for the security of important 
structures such as dams, bridges, and power plants. Since that time, 
the Bureau has been particularly wary of the Folsom Dam's appeal as a 
potential terrorist target. As you know, the dam is the Sacramento 
area's primary defense against the intense flooding that the American 
River has generated historically. Furthermore, the Folsom Dam and 
Reservoir serve as a vital part of the Central Valley Project. They 
control the flow of water that is critical to farmers, families, and 
fish not only in the Sacramento Region, but also in the Bay-Delta and 
Southern California. Finally, Folsom's hydroelectric plant provides a 
significant amount of the energy consumed in the area. Given how 
crucial this facility is to the safety and vitality of California's 
capital, we must ensure that it remains secure from the efforts of 
those who seek to harm our well-being. Allowing public access to the 
dam is a dangerous situation that we must remedy as soon as possible.
IMPACTS ON THE COMMUNITY
    Beyond the public safety factor, the current arrangement also 
causes numerous other problems. The eastern portion of the Sacramento 
region, which I represent, is the fastest growing area in California. 
Traffic congestion is a growing concern for the City of Folsom and its 
neighboring communities. The demands placed on the Folsom Dam Road by 
the thriving commercial centers and neighborhoods that have developed 
nearby have exceeded the structure's capacity. A small road designed to 
accommodate maintenance crews now handles 17,000 cars per day, despite 
local efforts to relieve congestion. Just a few years ago, the City of 
Folsom self-funded a $75 million bridge downstream from the dam to 
improve the flow of traffic. Nevertheless, the dam road remains one of 
the area's most important traffic arteries and is the most convenient 
link between South Placer County, Folsom, and Western El Dorado County. 
It is a key route for workers commuting to and from the major job 
centers in the vicinity. Besides commuters, it also serves local 
shoppers, students, and visitors enjoying Folsom Lake's popular 
recreational opportunities.
    Because the Bureau must occasionally do maintenance work on the 
dam, the road is closed from time to time. The Bureau, as well as the 
Army Corps of Engineers (Corps), has effectively worked with city 
officials to minimize the inconvenience for local drivers, often by 
performing repairs at night or other off-peak hours. However, in cases 
of emergency, such as when the dam gates failed in 1997, and following 
the attacks of September 11th, the road may close completely for 
undetermined periods of time. This unpredictability has snarled 
traffic, impeded local commerce, and generally caused great 
frustration. At the same time, the Bureau's ability to manage the 
facility is constrained or compromised by accommodating the community's 
needs.
THE SOLUTION
    The solution to these traffic problems, as well as the severe 
security concerns, is the same--to replace reliance on the Folsom Dam 
Road by building a new bridge. This is the only way to protect against 
terrorism without unfairly harming the community. H.R. 2301 would 
authorize the construction of a four lane structure just downstream of 
the dam. It also calls for the construction of necessary linkages from 
the bridge to existing roadways and provides for reestablishment of 
administrative facilities located at the dam that will be affected by 
the construction work. Upon completion, the Bureau would transfer 
ownership of the facilities to the City of Folsom.
    You may ask, ``Why should the federal government be responsible for 
building this bridge?'' The first reason is that Folsom Dam, the 
reservoir, and surrounding land are owned and operated by the Bureau. 
Second, the federal government has primary responsibility for the 
security of federal facilities. Additionally, when the dam was first 
created, the reservoir inundated four existing two-lane river 
crossings. This is just partial compensation for that loss. Finally, 
the City of Folsom has acted in good faith to address both the security 
and transportation problems. Since September 11th, its police 
department has cooperated with the Bureau to improve security measures. 
In terms of addressing the traffic issues, as I stated earlier, the 
city recently built a $75 million bridge further downstream without any 
federal assistance.
    H.R. 2301 has the endorsement and support of the Bureau, local 
governments, the business community, and local transportation 
advocates. In fact, today you will hear favorable testimony from the 
City of Folsom, the County of Sacramento, and the Sacramento Area 
Council of Governments. They will explain in greater detail the 
precariousness of the current situation and the great need for this 
bill.
    While the people of Folsom and neighboring locales will see the 
most tangible benefit from the passage of this legislation, clearly, 
every person in the surrounding region would owe you a debt of 
gratitude for protecting them from serious danger.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman. As you noticed, lights 
and buzzers went off. We have one vote. So Mr. Doolittle and I 
will run down and vote very quickly, and then we will introduce 
our guests so they can start their testimony, where we will not 
have to leave in the middle of your testimony. So if you will 
excuse us here for about 5 minutes, we will be right back.
    [Recess.]
    Mr. Calvert. The hearing will please come to order.
    Our first panel is Mark A. Limbaugh, Director of External 
and Intergovernmental Affairs, Bureau of Reclamation, U.S. 
Department of the Interior. And our second witness is the 
Honorable Jeffrey M. Starsky, Mayor of the city of Folsom in 
the State of California.
    Mr. Limbaugh, you may begin. We are under a 5-minute rule 
here. If you more or less can stay within that 5 minutes, that 
would be appreciated. You have those little lights there; 
yellow meaning 1 minute is left, and the red meaning that the 
time has expired. And with that, you may begin.

     STATEMENT OF MARK A. LIMBAUGH, DIRECTOR, EXTERNAL AND 
    INTERGOVERNMENTAL AFFAIRS, BUREAU OF RECLAMATION, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Limbaugh. Thank you, Mr. Chairman. Good afternoon, Mr. 
Chairman, Mr. Doolittle. My name is Mark Limbaugh, and I am the 
Director of External and Intergovernmental Affairs for the 
Bureau of Reclamation here in Washington. I will be making some 
general remarks, and would like to ask that my written 
testimony be entered into the record in its entirety.
    Mr. Calvert. Without objection.
    Mr. Limbaugh. I would like to start off by reading a brief 
statement from John Keys, Commissioner of Reclamation. In his 
statement, Mr. Keys apologizes for not being here today to 
comment on H.R. 2301, but recognizes the importance of the 
construct of a new bridge at Folsom Dam, as well as closure of 
the roadway on the dam.
    Mr. Keys wanted me to take a moment to commend Congressman 
Doolittle for his foresight and leadership in addressing these 
concerns. And he looks forward to working with the Congressman, 
the Subcommittee, the city of Folsom, and other agencies, to 
find innovative solutions for the construction of the new 
bridge.
    When construction of Folsom Dam was completed in 1956, the 
narrow two-lane road built on the top of the dam was intended 
to serve as an access road for maintenance and incidental 
access to the other side of the lake. In the ensuing years, as 
the population of Placer and El Dorado Counties has grown, and 
since the area adjacent to the dam is within the city limits of 
Folsom, California, this road has become a major transportation 
artery between these two counties. Currently, over 18,000 cars 
cross the dam daily.
    More recently, three events have highlighted the need for a 
new bridge to bypass Folsom Dam:
    In 1995, a spillway gate at Folsom Dam failed, making it 
necessary to close the road for an extended period of time to 
repair this gate. This road closure resulted in severe traffic 
congestion, adversely impacting the city of Folsom and severely 
impacting emergency traffic from reaching one side to the 
other.
    Also, the Oklahoma City bombing resulted in the Federal 
Government closely examining the vulnerability of all of its 
structures. Reclamation completed several security assessments 
of Folsom Dam documenting the risks associated with public 
crossing of the dam.
    And finally, after the events of September 11th, 
Reclamation closed the road to traffic. That again resulted in 
severe traffic congestion, impacting the community. 
Subsequently, the road was reopened during daylight hours only 
for cars and pickups, but remains closed to large vehicles. 
Further, the road is closed nightly, and patrolled by armed 
guards during this time.
    Reclamation continues to have concerns over security and 
safety at the dam and supports construction of the new bridge 
at Folsom Dam, as well as the closure of the road to public 
traffic across the dam. Although we have budgetary concerns 
with the funding levels sought for construction of this bridge 
and cannot support the bill as written, Reclamation in no way 
intends that this statement diminishes the importance of 
traffic and security issues surrounding Folsom Dam roadway.
    Reclamation is committed to step up our efforts to work 
with this Subcommittee, with Congressman Doolittle, with the 
city of Folsom, the Sacramento area Council of Governments, the 
State of California, and any other appropriate Federal and 
state agencies, to search for a solution that will allow this 
project to move forward.
    Mr. Chairman, this concludes my oral testimony, and I would 
certainly stand for questions.
    [The prepared statement of Mr. Limbaugh follows:]

Statement of Mark A. Limbaugh, Director, External and Intergovernmental 
  Affairs, U.S. Bureau of Reclamation, U.S. Department of the Interior

    My name is Mark A. Limbaugh, I am Director External & 
Intergovernmental Affairs for the U.S. Bureau of Reclamation. I am 
pleased to provide the Administration's views on H.R.2301, to authorize 
the Secretary of the Interior to construct a bridge adjacent to the 
Folsom Dam in California.
    H.R. 2301 would authorize the Secretary of the Interior to design 
and construct a bridge on Federal land west and adjacent to Folsom Dam 
in California which would, upon completion, be transferred to the City 
of Folsom. H.R. 2301 authorizes that $85,000,000 be appropriated for 
this purpose.
    While the Department of the Interior strongly supports closure of 
the current roadway across the top of Folsom Dam and construction of a 
new bridge to ease traffic problems, this is not a Federal 
responsibility and therefore the Administration cannot support H.R. 
2301.
Background
    When construction of Folsom Dam was completed in the mid-1950's, 
the narrow two lane road built on the top of the dam was intended to 
serve as an access road for maintenance and for incidental recreational 
access to the lake. In the ensuing years, as the population of Placer 
and El Dorado counties has grown (Placer County has been listed as the 
fastest growing county in the nation), and since the area adjacent to 
the dam is within the city limits of Folsom, California--which is one 
of the fastest growing cities in the state--the road over Folsom Dam 
has become a major transportation artery between these two counties. 
Over the last 20 years, traffic on this road has grown exponentially to 
the point that up to 18,000 cars cross the dam each day.
    However, two events in 1995 and more recent events on September 11, 
2001 have highlighted the need for a bridge to bypass Folsom Dam.
    Spillway Failure. In 1995, a spillway gate at Folsom Dam failed 
which necessitated closing the road for an extended period for both 
immediate safety reasons and then to accommodate repairs to the 
spillway. As a result, traffic congestion adversely impacted the city 
of Folsom and severely restricted emergency traffic (police, fire and 
ambulance) from reaching one side from the other.
    Oklahoma City Bombing: After the Murrah Building in Oklahoma City, 
Oklahoma was bombed, the Government closely examined the vulnerability 
of all its structures. Reclamation completed security assessments at 
Folsom Dam in 1996, 1997, 1998 and 2001 and clearly documented the 
risks associated with open public access across this dam. Further, 
Folsom Dam will undergo an in-depth security review in the upcoming 
months.
    9/11/01: After the events of September, 11, 2001, Reclamation 
closed the road across Folsom Dam which again resulted in serious 
traffic congestion in the community. Subsequently, the road was 
reopened during daylight hours to cars and pickups, but is closed to 
large vehicles at all hours. Further, between the hours of 8:00 pm and 
6:00 am, the road is closed altogether and patrolled by armed guards. 
We continue to have security concerns about this road and will keep 
these restrictions in place until a full security assessment is 
complete.
Reclamation's Recent Activities
    Over the last several years, Reclamation, who manages Folsom Dam, 
and the City of Folsom, have been working together to look for a 
solution.
    Recently, Reclamation completed an appraisal level report, dated 
March 1, 2000 (and updated in November, 2001) which estimated that a 
replacement road (two lanes) and bridge would cost approximately $49.6 
million. A four lane bridge and road was estimated to cost $66.5 
million and would include the relocation of Reclamation buildings 
within the road alignments. In addition to Reclamation's work, the U.S. 
Army Corps of Engineers (Corps), which originally built Folsom Dam, 
included this appraisal level information in its American River 
Watershed Long Term Study on flood control options for Sacramento, 
which includes the option of raising the height of Folsom Dam--
requiring a temporary (or permanent) bridge during construction.
Concerns With H.R. 2301
    Funding Sources and Priority: While the Administration recognizes 
and appreciates the safety and security concerns associated with the 
current situation at Folsom Dam and the importance of this road as a 
major transportation artery, this is a transportation issue. 
Reclamation operates and maintains Folsom Dam and is primarily involved 
in only water management and operational issues at Folsom.
    H.R. 2301 is not consistent with current budget priorities. 
Further, the addition of this extremely large obligation would severely 
strain Reclamation's budgetary capacity, and limit our ability to help 
meet other project and water management obligations and needs in 
California and throughout the west.
    Overall Cost and Adjustments for Inflation: H.R. 2301 proposes to 
authorize $85,000,000 in appropriations for the design and construction 
of this bridge. This far exceeds Reclamation's appraisal-level 
estimates of $49.6 and $66.5 million for a two and a four lane road and 
bridge respectively. Further, H.R. 2301 has no provisions for adjusting 
the ceiling due to inflation, which is standard practice for a 
Reclamation construction project. To more accurately budget for this 
project and provide greater accountability, we recommend that the 
amount authorized in HR 2301 reflect current estimates and that it 
authorize adjustments based on existing engineering and construction 
cost indexes applicable to this type of construction.
    Cost Share: An additional concern with H.R. 2301 is the lack of any 
cost sharing; any Federal involvement in construction of this bridge 
should have state and local cost sharing arrangements consistent with 
Reclamation policy. It is my understanding that the City of Folsom and 
the Sacramento Area Flood Control Agency (SAFCA) have expressed a 
willingness to cost share such a project. The legislation should 
require an appropriate, up-front, non-Federal cost share for the entire 
project, including the cost of replacing the buildings that will have 
to be relocated.
    Conclusion: Mr. Chairman, let me reiterate that the Administration 
shares the concern of the sponsors of H.R. 2301 about the safety in 
this community. However, we believe that this bridge, while important 
is a non-Federal responsibility more appropriate for the state of 
California, which, if it deems appropriate, may use its own Federal 
highway funds for the construction.
    That concludes my prepared remarks. I would be pleased to answer 
any questions.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Mr. Starsky, you may begin your testimony. I should say, 
Mayor Starsky.

 STATEMENT OF JEFFREY M. STARSKY, MAYOR, CITY OF FOLSOM, STATE 
                         OF CALIFORNIA

    Mr. Starsky. Thank you, Mr. Chairman and Mr. Doolittle. 
Good afternoon. My name is Jeff Starsky. I am the Mayor of the 
city of Folsom, California. And let me begin by thanking you 
both for holding this hearing. And I do wish to express the 
appreciation of the 56,000 residents of the city of Folsom for 
the opportunity to be here to present our case.
    The very proud Americans who reside in Folsom, California, 
share the very legitimate concerns of our nation with security, 
and specifically with regard to the Bureau of Reclamation's 
facilities at Folsom Dam. The threat to the security of the dam 
is real. We agree with Director of Homeland Security Tom 
Ridge's assessment that Folsom Dam ranks as one of the five 
highest security issues in the State of California. We 
appreciate the comments of Mr. Limbaugh, and we appreciate the 
recognition of the security concerns at that dam.
    And I do need to add, Mr. Chairman, that the city of Folsom 
has enjoyed a nearly 50-year relationship with the Bureau of 
Reclamation. It has been a very good relationship. We, as a 
city, value that relationship, and we look forward to working 
with the Bureau in the future.
    But what brings me here today, and some of my colleagues 
who will speak on the next panel, are the concerns we have 
about mitigation in the event that the road that currently 
traverses Folsom Dam is closed. The impacts to the city of 
Folsom will be substantial. And I will briefly discuss those in 
a moment.
    We believe that H.R. 2301 addresses those concerns and 
responds to the issues that we have in the city. As Mr. 
Limbaugh indicated, approximately 18,000 vehicles per day 
travel across the Folsom Dam. If you needed a little bit of an 
understanding of where this dam sits in relationship to the 
region, to the immediate north and west is Placer County; to 
the immediate north and east is El Dorado County; and the city 
of Folsom sits in the county that is immediately adjacent to 
the south.
    The dam serves as a major regional traffic connection which 
provides access between those three counties for jobs and 
housing. Employees of Hewlett-Packard in Placer County, Blue 
Cross in El Dorado County, and a large share of the 6,000 
employees of the Intel Corporation, which is within our own 
city, use Folsom Dam on a daily basis. In addition, nearly one 
and a half million people annually visit the adjacent Folsom 
Lake recreation area, many of whom use the dam road for access. 
I think it is without question that the closing of this dam 
without a replacement would force this traffic through the 
center of our city, and the impacts would be clearly 
substantial.
    Unfortunately, we have a miniature case study of what will 
occur if this road is closed without a replacement. And it 
happened in 1995, as Congressman Doolittle alluded to, when the 
gate broke at Folsom Dam. It resulted in a closure of the dam 
road for approximately a 6-week period. The cost to commerce in 
our region for that 6-week period is still being determined, 
but I can give you some information regarding impacts on the 
city of Folsom. Thirty percent of the businesses in our 
historic district, which is the downtown ``Old Folsom'' area, 
closed as a result of that 6-week closure. Now, I know that is 
somewhat unusual, but you have to remember the types of small 
businesses that are down there. These are antique and tourism-
related businesses that rely heavily upon this transportation 
method. Probably more of a concern is that 50 percent of the 
businesses immediately adjacent to the dam access roads 
suffered failures. As you can see, 1995 was a dark time for 
commerce in the city of Folsom.
    Mr. Doolittle commented on the recognition by Congress of 
that 1995 closure. And in fact, Congress appropriated $100,000 
in funding to assist the city of Folsom to meet some of the 
fire and police protection costs that were incurred as a result 
of that 6-week closure. We certainly appreciate that, to this 
day. But I think it points to an important issue, and that is 
that the Congress recognized that this facility was in fact a 
Federal facility, and felt it had some obligations. And we do 
appreciate that.
    I think Mr. Doolittle's point was also with regard to when 
this facility was built, nearly 50 years ago, there was an 
intent to replace existing river crossings. Four crossings, two 
lanes each--so basically, eight lanes of traffic--have been 
eliminated by this facility. So we believe that there is some 
obligation on the part of the Federal Government to assist us 
in providing those connections.
    The city of Folsom urges the Subcommittee on Water and 
Power to report favorably on H.R. 2301 as quickly as possible. 
As Mr. Limbaugh indicated, the dam road is currently under some 
restrictions. Truck traffic has been diverted, and it is 
traveling through our city. It is causing increased wear and 
tear on our roadways, and we are feeling some of the effects 
immediately.
    And Mr. Chairman, if you will indulge me another 20 
seconds, I will complete my remarks. I just needed to make one 
brief comment with regard to Congressman John Doolittle. I 
wanted to come here, again, on behalf of the city of Folsom to 
thank Congressman John Doolittle. Congressman Doolittle has 
served in Congress with distinction and honor for six terms. 
The residents of Folsom deeply appreciate his hard work, 
dedication, and commitment to all of us, as well as all of the 
constituents in his Fourth Congressional District. And although 
we will fall in a different congressional district beginning 
next year, the residents of Folsom will continue to value his 
friendship and his counsel, and we will always consider him a 
great friend and a citizen of Folsom. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Starsky follows:]

  Statement of The Honorable Jeffrey Starsky, Mayor, City of Folsom, 
                          State of California

    Mr. Chairman and distinguished members of the Committee, my name is 
Jeffrey Starsky and I am the Mayor of the City of Folsom, California. I 
appreciate the opportunity to speak today regarding H.R. 2301, a bill 
to authorize the Secretary of the Interior to construct a bridge on 
Federal land west of and adjacent to Folsom Dam in California.
    I wish to begin by thanking you and the members of the Subcommittee 
on Water and Power for holding this hearing this afternoon. The 
citizens of the City of Folsom, Sacramento County, El Dorado County, 
and Placer County need your assistance in helping us adjust to new 
risks made clear by the terrorist acts of September 11th. This hearing 
today is a critical step in the life of H.R. 2301, and demonstrates 
your concern and commitment to ensuring the physical safety and 
economic security of our city, our region, and the State of California.
    Also, on behalf of the City of Folsom, I wish to thank Congressman 
John Doolittle. Congressman Doolittle has served in Congress with 
distinction and honor for six terms. We value deeply his hard work, 
dedication, and commitment to his constituents in Folsom and throughout 
the entire Fourth Congressional District. Although Folsom falls within 
a different congressional district beginning next year, our City will 
continue to value his friendship and his counsel, and we will always 
consider him a great friend and citizen of Folsom.
    At issue is the security of one of the most important Bureau of 
Reclamation facilities in the nation. The purpose of H.R. 2301 is to 
ensure the security of the dam.
    The Flood Control Act of 1944 authorized the U.S. Army Corps of 
Engineers to build a dam on the lower American River. The U.S. Army 
Corps of Engineers completed construction on Folsom Dam in 1956. The 
U.S. Bureau of Reclamation now owns and operates the dam. The reservoir 
holds just under one million acre feet of water when filled to 
operational capacity. The dam's power plant has three penstocks 
delivering 6900 cubic feet per second to turbines producing 
approximately 10% of the power used in Sacramento each year.
    The passage of H.R. 2301 is urgently needed to ensure the security 
of Folsom Dam and Folsom Reservoir. The new bridge is essential for the 
physical safety and economic stability of our City and the entire 
Sacramento metropolitan region. By removing automobile traffic from 
Folsom Dam, we will prevent the possibility of a catastrophic failure 
and flood caused by a terrorist act. Mr. Chairman, the City of Folsom 
strongly supports this legislation and urges you and your colleagues to 
act expeditiously on H.R. 2301 to make certain the bill is passed and 
signed into law as soon as possible.
    As the Committee is aware, Folsom Dam is a key subject in the 
ongoing debate regarding Northern California flood control, water 
storage, and power production. For many years the subject of the debate 
focused on averting a disaster resulting from events in nature--rain 
and snow. The focus was on anticipating and controlling large flows of 
water through the American River and Sacramento River watersheds. And 
the debate revolved around the type and location of physical barriers--
dams and levees--and how best to operate the existing and new systems 
to manage waterflow safely. The debate also focused on the 
environmental impacts of decisions regarding those dams, levees, and 
waterflows.
    The physical security of the dam from terrorist attack lurked 
around the edges of the debate. We should point out that the federal 
government and others recognized the security risks posed by traffic on 
Folsom Dam Road, but the matter never seemed urgent until September 
11th changed America's way of thinking about security within the United 
States. In one morning, the issue of traffic atop the dam was 
transformed into a distinct and critical issue of national 
significance.
    The new bridge at Folsom probably would never have been the subject 
of its own congressional hearing without the tragedy of September 11th. 
It is likely the project would have continued to play a minor role in 
the flood control debate. I believe this is an important point to 
remember--the need for the new bridge transcends flood control now. And 
I believe the introduction of H.R. 2301 confirms this point.
    While it is certain that Sacramento's flood control debate will 
continue, I believe it is important to clarify that H.R. 2301 is not a 
part of that debate even if it implicates flood control. For example, 
we recognize there are plans and ongoing work to make the dam function 
better and more reliably as a flood control facility. Congress recently 
passed legislation providing for modifications to the existing facility 
to allow earlier water evacuation to provide a more even waterflow 
downstream and more storage capacity at the reservoir when it is most 
needed. H.R. 2301 will undoubtedly make it easier for these dam 
modifications to occur. And if Congress decides to raise the Folsom 
Dam, having a new bridge will facilitate new construction.
    But H.R. 2301 cannot be viewed as part of the flood control debate. 
H.R. 2301 addresses a grave national security risk. The bill should be 
passed now--it cannot wait for flood control actions. A major breech 
caused by a terrorist act would result in a titanic flood--hundreds of 
thousands of lives would be at immediate risk, as would the capitol of 
the fifth largest economy in the world. But we are not talking about 
controlling acts of nature anymore. We are talking about terrorism, 
about people who have demonstrated the capability and the mindset to 
cause devastation previously unimagined.
    We also recognize that the new bridge would provide other extremely 
important and direct benefits to our region. For years our City and our 
region have attempted to address traffic congestion and air pollution. 
In fact, Folsom recently completed a new bridge across the American 
River at a total project cost of $75 million. This new bridge, which 
was built without federal funds, dramatically improved automobile 
circulation in our city and regionally. It would be disingenuous for me 
to downplay our interest in securing construction of the new bridge to 
help improve our regional traffic and air quality problems. There are 
other positive outcomes of going forward with the new bridge that are 
unrelated to security and are also critically important to our City and 
our region. A new four-lane bridge at Folsom Dam is an indispensable 
component of the six-county Sacramento Region's Metropolitan 
Transportation Plan, the area's federally-mandated regional 
transportation plan for the next twenty years. The new bridge 
authorized by H.R. 2301 will provide great benefits beyond security. 
However, just as with flood control, H.R. 2301 cannot be viewed as a 
congestion mitigation bill.
    It is vitally important to get traffic off the dam as quickly as 
possible. That is the reason we are all here today. National security 
requires this action. However, we must also ensure that our goal is 
achieved in a responsible manner. We must work together to ensure that 
local and regional economic stability is maintained and traffic flow is 
managed as best as possible while the new bridge is under construction. 
Specifically, we cannot remove traffic from the dam until the new 
bridge is in place.
    Prior to September 11th, approximately 17,000 vehicles a day 
crossed the dam. Following events in New York City, recognition of the 
security risks associated with unlimited access to the dam has resulted 
in overnight closures of the road and restrictions on use of the road 
by trucks and larger vehicles. The City supports these controls, but we 
also have to accept the fact that this road serves as a major regional 
traffic connector providing access between jobs and housing in three 
different counties. Some of the larger industrial and commercial 
enterprises that benefit from this connection include Intel, Hewlett-
Packard, Blue Cross and a number of other major employment centers.
    The people using the dam road are traveling to and from work and 
school. They are conducting business and going shopping. They are 
enjoying the Folsom Lake Recreation Area, one of the most popular state 
recreational facilities in the nation with over one and a half million 
visitors annually. While the overriding concern is one of security, it 
is also clear that closing Folsom Dam Road without a replacement would 
be devastating to the local and regional economy.
    We learned the impact of closure several years ago when repair work 
required lengthy Folsom Dam Road closures. Several businesses were 
forced to close and others were deeply hurt economically. Traffic was 
horrible, police, fire, and medical response times increased, and the 
situation aggravated an already dire air quality situation locally and 
regionally. In fact, Congress recognized the cost of limited closures 
and authorized up to $100,000 in reimbursement to the City of Folsom 
for its costs.
    I cannot emphasize enough the importance of having the new bridge 
in place prior to the closure of Folsom Dam Road. We must move forward 
to get traffic off the bridge as expeditiously as possible, but we must 
also recognize the economic, traffic circulation, and air quality needs 
and realities in our region. It is important to note that these three 
matters are also points of national significance and federal 
involvement. We can put controls in place to minimize risks to dam 
security while maintaining access in the interim. I should point out 
again that overnight closures and restrictions on larger vehicles using 
the dam road are already in place. It is a difficult balance to strike 
and one that carries risks, but we must recognize that our economic 
security and our national security are absolutely intertwined.
    The Committee should be aware of the remarkable growth of 
communities adjacent to Folsom Lake over the past decade. The City of 
Folsom's population grew from 15,000 to our current 56,000 in a few 
short years. Eastern Sacramento County, the City of Roseville and 
southern portions of Placer County, and El Dorado County can also 
report exponential growth levels.
    Earlier in my testimony I outlined flood control related 
modifications authorized by Congress. There is another point related to 
government efficiency to be made in favor of going forward with the new 
bridge as presented in H.R. 2301. The U.S. Army Corps of Engineers 
previously recommended the construction of a temporary bridge to handle 
redirected traffic while the dam is modified. While the Corps' interest 
in minimizing the impact of closure is well-placed, it does not make 
fiscal sense to put $20 million into a temporary structure when that 
amount covers almost one third the cost of a permanent, full-service 
structure. Congressman Doolittle's legislation recognizes the 
importance of spending our limited federal resources prudently as well 
as the value of doing something right the first time around. Simple 
math demonstrates the fiscally responsible approach of foregoing the 
temporary fix and applying those funds to a permanent, four-lane 
replacement bridge.
    We would like the Subcommittee to know that we have endeavored to 
meet with other local interests regarding H.R. 2301. Through those 
efforts, we feel we have covered enough bases to feel comfortable in 
fully supporting Congressman Doolittle's legislation. We met with the 
Bureau of Reclamation, our other regional congressional 
representatives, and our representatives in the Senate. We have talked 
with other local and regional governments as well as state officials. 
While we believe there is consensus that H.R. 2301 is the best approach 
to achieve our goals, several questions were raised fairly consistently 
during our review. I believe those questions have been addressed in my 
earlier remarks, but I believe it is worthwhile to call them out 
separately to ensure the Subcommittee is aware of those questions.
    First, some have asked whether the Bureau of Reclamation is the 
appropriate federal agency to build the bridge. We direct the 
Subcommittee to a recent letter to the Sacramento Bee from Bureau 
Commissioner John Keys, wherein he wrote, in part:
        ...the reference to the Bureau of Reclamation not having bridge 
        building capabilities is simply not correct. Reclamation has 
        designed and built many large bridges throughout the West. The 
        beautiful arch bridge that spans the depths of Glen Canyon in 
        Arizona is one example...Reclamation designed and built the 
        Foresthill Bridge that spans the American River at Auburn...The 
        property where the new bridge would be located is Reclamation 
        land, and Reclamation is quite capable of building the bridge 
        we'll design. Rep. John Doolittle is quite right in authorizing 
        Reclamation to build this much-needed bridge.
    This project replaces a federal facility owned and operated by the 
Bureau of Reclamation. The Bureau has the capability to design and 
build the new bridge. The Commissioner is in support of the new bridge. 
We believe this question has been addressed.
    Second, we looked at whether the new bridge should be designed and 
constructed with two or four lanes. Applying the same government 
efficiency logic to this question, it is clear that the bridge should 
be a full-service, four-lane bridge. It would be extraordinarily 
wasteful to build a two-lane bridge when we know that two-lanes were 
wholly inadequate years ago. Congressman Doolittle's legislation 
properly requires that the bridge be designed and constructed with 
appropriate sizing and linkages to support present and future traffic 
flow requirements for the City of Folsom. We believe this is the 
correct tack. I should also note that the City of Folsom and its 
regional partners have undertaken significant infrastructure 
investment, often without federal participation as in the case of the 
recently opened bridge I mentioned some moments ago. We believe this 
question has also been addressed.
    Finally, we looked at whether this legislation would have any 
prejudicial effect on the flood control debate. We believe not. In 
fact, the new bridge would assist in already authorized flood control 
efforts without unduly aiding or damaging the positions of major 
players in the flood control debate. The legislation accomplishes as 
efficiently as possible the primary goal of securing the facility, 
provides additional benefits, and does so without biasing the flood 
control debate or outcome. We believe this question has been answered.
    Mr. Chairman, in closing I would once again like to thank you and 
your colleagues for holding this hearing today. We understand that your 
committee is extraordinarily busy, and the fact that this hearing has 
occurred underscores both your commitment to ensuring the safety and 
security of Americans as well as the clearly established need for the 
passage of H.R. 2301. We also again wish to thank Congressman Doolittle 
for all his work on this legislation and on behalf of the City of 
Folsom over the past decade.
    The City of Folsom urges the Subcommittee on Water and Power to 
report favorably on H.R. 2301 as soon as possible. I appreciate the 
opportunity to appear before you today, and this concludes my formal 
statement. I would be happy to answer any questions you may have.
    Again, thank you.
                                 ______
                                 
    Mr. Calvert. I thank the Mayor. And we certainly share that 
high opinion of our colleague, Mr. Doolittle.
    Mayor Starsky, one of your comments I thought was somewhat 
compelling. You mentioned that eight lanes of road were there 
prior to the construction of the Folsom Dam, which I assume was 
paid for with local funds, and removed by the direction of then 
the Federal Government in order to put the new dam facility in. 
Is that correct?
    Mr. Starsky. I can only testify as to my understanding of 
that, Mr. Chairman, since I had not yet been born when this 
facility was constructed. But from what I read in the 
congressional discussion that was held in the 1995 hearings, 
that is my understanding, that eight lanes of crossings were 
eliminated when the facility was constructed.
    Mr. Calvert. Well, it is certainly part of the record of 
today's conversation, anyway.
    Mr. Starsky. Yes. Thank you.
    Mr. Calvert. So we can certainly go back and look at that 
time. So today when you ask for a four-lane facility to replace 
the two lanes that would be closed on the dam, you think that 
that is certainly necessary, not only to replace the two lanes 
that are presently there, but to help offset what was lost in 
past years?
    Mr. Starsky. That is absolutely correct, Mr. Chairman.
    Mr. Calvert. And then, obviously, the security issue. I am 
on the Taskforce on Terrorism, and let me ask a question. Do 
you still have people posted nearby the dam, just observing 
traffic and people or suspicious behavior?
    Mr. Starsky. Well, certainly, my police department will 
respond to that. We patrol the area periodically. There is some 
confusion between the California Highway Patrol and our 
department, as to who has the primary responsibility, but we 
continue to respond to every call, every event. And we 
certainly consider it a threat.
    Mr. Calvert. Is the Federal Government helping you offset 
any of those costs? Or are you having to bear those costs on 
your own, to have the additional security in that region?
    Mr. Starsky. We are bearing those costs ourselves.
    Mr. Calvert. As a matter of fact, I should say, as a matter 
of representation here, that the police chief of Folsom is one 
of my best friends. We went to kindergarten together. So he's 
passed that along to me.
    [Laughter.]
    Mr. Starsky. He supports this bill, Mr. Chairman.
    Mr. Calvert. He has indicated to me the traffic problems 
along that stretch of road, also.
    Mr. Limbaugh, I am trying to ask a question from a positive 
light. How can you help coordinate efforts amongst the Federal, 
state, and local interests, in providing assistance in building 
this bridge? In your testimony, you don't deny the fact that 
the bridge should be built. But it seems to me that you just 
don't believe that the Federal Government should have to pay 
for it.
    Mr. Limbaugh. Well, Mr. Chairman, we can certainly step up 
our efforts, as I said in my oral testimony, through more 
involvement from our regional office perspective, and also from 
our Washington office perspective. I think some of the lines of 
communication have been opened up with the advent of this bill 
being introduced. And we certainly look to providing additional 
resources to try to find some solution.
    Mr. Calvert. Well, based upon the Mayor's testimony, if in 
fact that roadway was closed, if there was an alert, an 
unfortunate circumstance where we had to close that road 
permanently, and that road was put in replacement of other 
roads that you heard by previous testimony, to replace existing 
roads that were there, don't you believe the Federal Government 
has a responsibility not only to help facilitate this, but to 
help pay for it?
    Mr. Limbaugh. We certainly want to look into that with this 
effort. That is certainly something that I think our agency can 
assist in looking at, in terms of what the Federal 
responsibility is. We are currently going through site security 
reviews on some of our dams, and we certainly hope that those 
bring to light some additional facts that we may have to fold 
into the equation here, in terms of what is going to resolve 
this issue.
    Mr. Calvert. Because based upon the Mayor's testimony, just 
the economic hardship that was felt in 1995 would just be a 
small amount of the hardship that would be felt if it was 
closed permanently. And as you well know, building a road today 
is not an immediate thing. We have to design it; do 
environmental documentation; build it. And so even if we made a 
determination today, it would probably be at least 5 years 
before that road would be fully operable. So we would need to 
get to work on this as soon as possible.
    Mr. Limbaugh. Yes, sir, Mr. Chairman. One thing, just to 
reiterate my testimony, is that the road was never denied for 
this kind of traffic, either. And so we need to take that into 
consideration, as well.
    Mr. Calvert. The gentleman from California.
    Mr. Doolittle. Thank you. Mr. Limbaugh, I appreciate your 
appearance here today. And I just wondered, some have asserted 
that it is not the function of the Bureau of Reclamation to 
build bridges. That plainly flies in what is obvious, in terms 
of the fact. And I wonder if you could just offer your opinion 
as to the role of the Bureau in building bridges, and maybe 
cite a few examples.
    Mr. Limbaugh. Well, Mr. Chairman and Mr. Doolittle, we have 
built bridges in the past. As far as our capabilities are 
concerned, we do have the capability to design and build 
bridges. For the most part, the bridges that I am aware of--
obviously, I wasn't around either when many of them were 
built--but there was a bridge at Davis Dam; obviously, the 
Forest Hills Bridge at Auburn; and the Glen Canyon Bridge; and 
then several bridges on the Salt River project, some of which, 
or most of which, were built in conjunction with the 
construction--but some were not--of water related facilities.
    But as far as our capabilities go, that is one thing. 
Obviously, our concerns basically lie in the budgetary impacts. 
And we certainly are willing to discuss those with the other 
folks that depend on this traffic artery for their livelihoods 
in their communities. And that is something that we want to 
move forward with and open the lines of communication on.
    Mr. Doolittle. So would it be safe to say we could count 
upon a proactive stance on the part of the Department, to 
aggressively work with us to provide a solution here?
    Mr. Limbaugh. Mr. Chairman and Mr. Doolittle, that is what 
we are offering up. We are as an agency concerned, obviously, 
about the security and safety issues. We do not doubt the very 
important need for this facility. And we want to work with your 
staff and you and the other folks in this room to try to find a 
solution to move this project forward.
    Mr. Doolittle. Could I just ask, too, just for the record, 
since I am sure you won't have that list with you today, but 
could you provide for the record the list of bridges that have 
been built by the Bureau of Reclamation? Designed and/or 
constructed by them.
    Mr. Limbaugh. Mr. Chairman, Mr. Doolittle, I will do that 
for the Committee.
    Mr. Doolittle. Thank you.
    Mr. Calvert. I would request one other thing, too. I would 
look into--and maybe you can get back to the Committee on 
this--what legal obligation, if any. And I believe I ran into 
this before. If in fact roadways are removed in order to 
accommodate construction of this dam, what legal 
responsibilities does the Federal Government have in order to 
replace that roadway? If the Department can get back to me on 
that, I would appreciate it.
    Mr. Limbaugh. Mr. Chairman, we will do that.
    Mr. Calvert. OK. Any other questions for this panel?
    [No response.]
    Mr. Calvert. If none, I would ask the panel to stay here, 
in case we have some additional questions after this next 
panel.
    And the next panel I will introduce: The Honorable Roger 
Niello, the Supervisor of the County of Sacramento, State of 
California; Ms. Aileen Roder, the California Water Project 
Coordinator, Taxpayers for Common Sense; and the Honorable 
Steve Miklos, a board member of the Sacramento Area Council of 
Governments, State of California.
    With that, again, I would explain the 5-minute rule. Please 
try to keep your testimony within 5 minutes. The yellow light 
will come on when you have 1 minute remaining. The red light 
will come on when the time has expired. And with that, I will 
recognize the supervisor from Sacramento, Roger Niello. You are 
recognized.

 STATEMENT OF ROGER NIELLO, SUPERVISOR, COUNTY OF SACRAMENTO, 
                      STATE OF CALIFORNIA

    Mr. Niello. Thank you very much, Mr. Chairman, Mr. 
Doolittle, members of the Committee. I will give remarks to 
summarize my written testimony. I would like to request that it 
be submitted into the record.
    I am Roger Niello, member of the Sacramento County Board of 
Supervisors. And I am here in support of H.R. 2301. I join 
everyone here in thanking you very much for holding this 
hearing and allowing us this opportunity. Also, on behalf of 
Sacramento County, I too want to recognize the hard work and 
dedication exhibited by Congressman John Doolittle on this 
issue. And we very much appreciate, John, your taking the 
leadership on this project.
    We urgently need the bridge authorized by H.R. 2301, to 
ensure the security of Folsom Dam. The Chair already spoke to 
the necessity, as did the gentleman from the Bureau, of getting 
automobile traffic off the dam. I would like to provide you 
with a county and regional perspective, if I could.
    As a long-time local businessman, I know a lot about our 
regional economy. As a county supervisor and as a member of the 
Sacramento Area Flood Control Agency, I am painfully familiar 
with the vulnerability to flooding and the devastating impact 
that a major flood would have on the businesses and 
neighborhoods of our region. As members of this Subcommittee 
are aware, flood control is certainly something of a 
contentious issue in our region. And by the way, I want to 
stress that this legislation has absolutely no prejudicial 
effect on that flood control debate. And while we may disagree 
on means, we nonetheless all agree about the risks of a major 
flood.
    For perspective, Folsom Reservoir holds almost a million 
acre-feet of water, which is enough to cover the entire State 
of Rhode Island to a depth of 1-1/2 feet. With a failure of 
Folsom Dam, this much water would put at risk 300,000 
residents, about 5,000 businesses, and about $25 billion in 
property. Simply put, the impact of a catastrophic failure of 
Folsom Dam would be beyond devastation.
    In addition to flood control, of course, the reservoir 
provides drinking water to several communities in our region. 
The dam and the reservoir are key components of the Central 
Valley Project, and they help to ensure water supplies are 
available to agriculture and municipalities throughout the 
state. The loss of this crucial reservoir would dry up the 
residential and business faucets of much of the Sacramento area 
overnight, and it could rock the entire north state's domestic 
and agriculture water supply to its very core.
    Now, with our major metropolitan area submerged under 
several feet of water and its primary water reservoir empty, 
the added impact of a loss of a critical energy source would 
seem perhaps unimaginable, but it would be all too real. The 
generators at Folsom Dam generate enough power for nearly 70 
[sic] homes each day. So we are under dirty water; we are out 
of clean water; we have no air conditioning, heat, or lights. 
That truly is beyond devastation.
    Now, obviously, my primary message to you today is 
security. Additionally, I want to highlight two points that are 
being made by my community colleagues. This transportation 
corridor is absolutely crucial to the mobility of this rapidly 
growing northeast sector of our region. And the proposed four-
lane configuration is owed, if you will, as has been explained 
by others; but it is the only option that makes good 
transportation planning sense. Further, the essential nature of 
this transportation link requires that it remain open, with 
whatever prudent security measures are necessary, while an 
alternative facility is in the making.
    Mr. Chairman, in closing, once more, I want to thank you 
for holding this hearing. And once more, I want to emphasize, 
as a local elected official, but frankly, more importantly, on 
a personal basis, because John Doolittle has been a friend of 
mine since before I was elected, I wish to thank him very much 
for all of his good work, not just on this legislation, but in 
so aptly representing our communities for these many years.
    H.R. 2301 is the right legislation at the right time. And I 
would urge this Subcommittee to report favorably on this 
legislation as very soon as possible. That concludes my 
testimony.
    [The prepared statement of Mr. Niello follows:]

  Statement of The Honorable Roger Niello, Sacramento County Board of 
                              Supervisors

    Mr. Chairman and distinguished members of the Committee, my name is 
Roger Niello, and I am a member of the Sacramento County Board of 
Supervisors. I am here in support of H.R. 2301, a bill to authorize the 
Secretary of the Interior to construct a bridge on Federal land west 
of, and adjacent to, Folsom Dam in California.
    I join my friends and colleagues invited to testify today in 
thanking you and the members of the Subcommittee on Water and Power for 
holding this hearing this afternoon. This is truly a critical project, 
and we cannot do what needs to be done without federal involvement. 
Sacramento County also recognizes the hard work and dedication 
exhibited by Congressman John Doolittle on this issue. We truly 
appreciate Congressman Doolittle's commitment to securing the new 
bridge and doing so in a fiscally responsible manner. His legislation 
recognizes the realities of dam security as well as regional 
transportation and air quality issues, and we appreciate his leadership 
in taking on this necessary project.
    We urgently need the bridge authorized by H.R. 2301 to ensure 
security at Folsom Dam and Folsom Reservoir. This new bridge is 
essential for the physical safety and economic stability of our region 
and the State of California. By removing automobile traffic from Folsom 
Dam, we will prevent the possibility of a catastrophic failure and 
flood that could be caused by a terrorist act. Mr. Chairman, I strongly 
support this legislation and I urge you and your colleagues to act 
speedily on H.R. 2301 to make certain the bill is passed and signed 
into law as soon as possible.
    I am here to provide a regional perspective on the importance of 
securing Folsom Dam from a terrorist attack. As a local businessman, I 
know quite a bit about the power of our regional economy. As a public 
official I have learned the importance to our public safety and economy 
of a viable water supply, a reliable energy grid, and a functioning 
transportation system. I also serve on the Sacramento Area Flood 
Control Agency, so I am painfully familiar with our vulnerability to 
flooding and the devastating impact a major flood would have on 
Sacramento and on California. I do not believe it is hyperbole to 
suggest that a major flood in Sacramento coupled with the immediate 
loss of a major water and power supply, would have a damaging impact on 
our national economy. Simply put, the impact of a catastrophic failure 
of Folsom Dam would be beyond devastation.
    As members of this subcommittee are aware, flood control is a 
contentious issue in our region. Nonetheless, we all agree about the 
risks of a major flood. For perspective, Folsom Reservoir holds 976,955 
acre feet of water. According to the Bureau of Reclamation--the owner / 
operator of the dam ``this is enough to cover the state of Rhode Island 
to a depth of one-and-one-half feet. According to the Sacramento Area 
Flood Control Agency, the failure of the Folsom Dam would put at risk 
approximately 300,000 residents, 5,000 businesses and $25 billion in 
property, including major highways, schools, our State Capitol and a 
multitude of other public institutions. I know our region has rebounded 
from flooding before, and I know we are capable of overcoming 
significant obstacles of many types. But I wonder whether we could ever 
fully recover from such an event.
    In addition to flood control, Folsom Reservoir provides drinking 
water to the City of Folsom, portions of Sacramento County, the City of 
Roseville, and other local and regional water authorities. Folsom Dam 
and Reservoir are key components of the Central Valley Project and help 
ensure water supplies are available to agriculture and municipalities 
throughout the state. I need not remind this subcommittee of the 
paramount importance of ensuring a reliable supply of clean water in 
our state. Our water supply and delivery system would be severely 
rocked by the sudden loss of Folsom Dam and Reservoir.
    With the core of a major metropolitan area submerged under several 
feet of water and its primary water supply reservoir empty, the added 
impact of a loss of a critical electricity source would seem 
unimaginable. It would, in this case, be all too real. The three 
generators at Folsom Dam's power plant produce up to 210 megawatts of 
electrical power and provide power for nearly 70,000 homes each day. As 
you all know, our state's energy challenges are all too serious as it 
is. Given the magnitude of these challenges, the citizens of our state 
and our region have demonstrated an admirable capacity to conserve our 
recently much more precious supply of electricity. We are left, 
however, with virtually no margin for error. A loss of the power 
supplied by Folsom Dam would eliminate that empty margin and surely 
could result in the dreaded black-outs that we have so far largely 
avoided.
    We all understand that H.R. 2301 will provide benefits to our 
citizens beyond the security needs I previously outlined. We have major 
traffic congestion and air pollution problems locally and regionally 
that are caused or aggravated by the existing, obsolete crossing at 
Folsom Dam. The bridge and linkages provided by H.R. 2301 will provide 
significant congestion relief upon completion and also anticipate and 
address future growth in our region. The new bridge authorized by H.R. 
2301 will provide great benefits beyond security.
    In spite of the significant security risk, I agree with my 
colleagues Mayor Starsky and Councilmember Miklos that we cannot afford 
for Folsom Dam Road to be summarily closed. It is a national priority 
to remove traffic from Folsom Dam Road as speedily as possible. 
However, we also have a keen interest and responsibility to help ensure 
the vitality of our local and regional economy by providing a workable 
transportation system. To that end, we must keep Folsom Dam Road open--
with adequate security measures in place--until the new bridge is 
operational.
    We must recognize that closing Folsom Dam Road without a 
replacement would be devastating to the local and regional economy. 
H.R. 2301 is the necessary step in removing traffic from the dam, but 
we must also recognize the economic, traffic circulation, and air 
quality needs and realities in our region. My colleagues on this panel 
and I share grave concerns regarding allowing traffic atop the dam 
until the new bridge is in place. It is a difficult balance to strike 
and one that carries risks, but we must recognize that our economic 
security and our national security are absolutely intertwined.
    I also agree with my colleagues on the panel that government 
efficiency requires the new bridge to be a full-service, four-lane 
bridge. Congressman Doolittle's legislation properly requires that the 
bridge be designed and constructed with appropriate sizing and linkages 
to support present and future traffic flow requirements for the City of 
Folsom and the adjacent Sacramento County, Placer County and El Dorado 
County communities.
    As I said before, flood control is always controversial in our 
region. It is important to point out, though, that this legislation has 
absolutely no prejudicial effect on the flood control debate. The new 
bridge will secure the facility, will provide additional transportation 
and air quality benefits, and will do so without biasing the flood 
control debate or outcome.
    H.R. 2301 is the right legislation at the right time. This bill is 
about ensuring the physical and economic security of our citizenry. It 
accomplishes the goal by preventing terrorists access to a federal 
facility identified by the Bureau of Reclamation as one of the top five 
security risks within its jurisdiction. H.R. 2301 will help ensure 
reliable water and energy supplies for our region and for the State of 
California, so critical to our economy and our way of life in 
California. H.R. 2301 also anticipates other important national and 
regional priorities, including transportation congestion relief and air 
quality improvement. In spite of achieving other important local, 
regional, and national goals, we cannot forget that the fundamental 
purpose H.R. 2301 is to ensure the security of the dam.
    Mr. Chairman, thank you again for holding this hearing and giving 
my colleagues and me, from Northern California, the opportunity to 
appear before you today. We also again wish to thank Congressman 
Doolittle for all his work on this legislation and on behalf of our 
community over the past decade. I urge the Subcommittee on Water and 
Power to report favorably on H.R. 2301 as soon as possible. This 
concludes my formal statement, and I would be happy to answer any 
questions you may have.
    Again, thank you.
                                 ______
                                 
    Mr. Calvert. Thank you. And I appreciate your testimony.
    Ms. Roder, you are recognized.

      STATEMENT OF AILEEN RODER, CALIFORNIA WATER PROJECT 
            COORDINATOR, TAXPAYERS FOR COMMON SENSE

    Ms. Roder. Thank you. I would ask that my full testimony 
would be submitted to the record.
    Mr. Calvert. Without objection, so ordered.
    Ms. Roder. Thank you. Good afternoon, Chairman Calvert, 
Congressman Doolittle, Congressman Otter, and other members of 
the Subcommittee. I am Aileen Roder, the California Water 
Project Coordinator at Taxpayers for Common Sense, a national 
non-partisan budget watchdog group. I would like to thank you 
for inviting me to testify at this hearing regarding H.R. 2301, 
which Congressman Doolittle introduced in June of 2001.
    This bill would authorize the Secretary of the Interior to 
construct a bridge on Federal land west and adjacent to the 
Folsom Dam in California. Taxpayers for Common Sense strongly 
opposes H.R. 2301. This bill ignores plans by the U.S. Army 
Corps of Engineers to build a temporary bridge near Folsom Dam; 
contains no local cost-sharing for an enhanced bridge; makes an 
end-run of the normal authorization process for bridge 
building; and tries to rewrite the Bureau of Reclamation's 
mission by making it into a highway construction agency.
    In February the Corps released a final environmental impact 
statement calling for a 7-foot raise of Folsom Dam in order to 
reduce the city of Sacramento's flood risk to a one-in-213 
chance in any given year. The Corps plan proposed constructing 
a temporary bridge to replace the existing bridge on Folsom Dam 
during the raise. The Corps estimates this bridge will cost $20 
million to $30 million. The temporary bridge is slated for 
removal after the raise is completed. Alternatively, the bridge 
could remain in place, if a local sponsor is identified to 
assume the operation and maintenance responsibilities.
    H.R. 2301 disregards this Corps plan in a blatant attempt 
to take advantage of legitimate security concerns and end-run 
the normal authorization process for road building improvement. 
Instead of involving the U.S. Department of Transportation, the 
Corps, or local entities such as the city of Folsom and 
Caltrans, H.R. 2301 brings in a completely unrelated agency 
into the process, the Bureau of Reclamation.
    Simply put, the Bureau is in the water supply business, not 
the bridge-building business. Foisting responsibilities upon 
the Bureau that are outside its core mission reduces the 
agency's effectiveness. This bridge work will compete with, and 
potentially crowd out, legitimate Bureau of Reclamation funding 
in the Energy and Water Appropriations bill.
    Taxpayers for Common Sense recognizes that a new bridge may 
be justified to reduce security concerns caused by having a 
bridge on the dam. However, 2301 clearly envisions much more 
than just replacing the bridge that currently traverses Folsom 
Dam. This bill will likely upgrade the bridge from two to four 
lanes. We recognize that a wider bridge may be needed, but the 
process established in this bill bypasses the very mechanisms 
that are in place to evaluate those needs and address those 
concerns.
    If local interests want a substantially improved bridge, 
then the city of Folsom and the State of California, in concert 
with the Highway Trust Fund, are the proper sources for bridge 
enhancement design and funding. Funding should certainly not 
come from the General Treasury or Energy and Water 
Appropriations.
    In his June 26, 2001 press release on H.R. 2301, 
Congressman Doolittle stated, ``It is clear that a permanent, 
full-service bridge is needed to ensure transportation 
efficiency and commuter convenience.'' Building a bridge to 
replace the one traversing Folsom Dam may be potentially tied 
to security concerns; but building an enhanced, four-lane 
bridge cannot be attributed to those same concerns. The Federal 
taxpayers should not be picking up the whole $85 million tab 
for commuter convenience.
    In closing, the Bureau of Reclamation should not be forced 
to deviate from its core mission by becoming a highway 
construction agency. Any bill authorizing construction of an 
improved Folsom Bridge should strictly define Federal and non-
Federal cost sharing. Such a bill should go through the normal 
highway authorization process, taking into account that the 
Corps is already contemplating construction of a two-lane 
bridge. Congress should not raid the coffers of the agencies 
dependent on energy and water appropriations to pay for the 
traffic convenience of a few local beneficiaries.
    Thank you very much again for the opportunity to testify 
today. I would be happy to answer any questions you might have.
    [The prepared statement of Ms. Roder follows:]

   Statement of Aileen Roder, California Water Project Coordinator, 
                       Taxpayers for Common Sense

    Good afternoon, Chairman Calvert, Congressman Smith, and other 
distinguished members of the Subcommittee. I am Aileen Roder, the 
California Water Project Coordinator at Taxpayers for Common Sense 
(TCS), a national, non-partisan budget watchdog group. I would like to 
thank you for inviting me to testify at this hearing regarding H.R. 
2301 which would authorize the Secretary of the Interior to construct a 
bridge on federal land west and adjacent to Folsom Dam in California.
    Taxpayers for Common Sense strongly opposes H.R. 2301. This bill, 
introduced in June 2001 by Congressman John Doolittle (R-CA), ignores 
an existing U.S. Army Corps of Engineers plan to provide much needed 
flood control to the City of Sacramento and build a temporary bridge 
southeast of Folsom Dam. This bridge could be turned over to the City 
of Folsom and would relieve the security concerns arising from the 
tragic events of September 11th.
    In February, the Corps of Engineers released a Final Supplemental 
Plan Formulation Report/Environmental Impact Statement/Environmental 
Impact Report (FEIS). This FEIS called for a 7-foot raise of Folsom Dam 
in order to reduce the City of Sacramento's flood risk to a 1-in-213 
chance in any given year. Recognizing the obvious impact of the raise 
on the dam bridge traffic, the Corps proposed a temporary bridge 
southeast of the Folsom dam. The bridge would be similarly sized to the 
existing dam bridge and aligned to ensure that no conflicts occur with 
existing Folsom Dam operations during the raise. After completion of 
the dam, the Corps envisions routing traffic back over the dam and 
removing the bridge. However, the Corps stated that the bridge could be 
left in place if a local sponsor is identified to assume the operation 
and maintenance responsibilities. This project is poised for 
authorization in the regular process later this year. I have attached 
the applicable portions of the Corps FEIS to my testimony.
    H.R. 2301 ignores all of this work by the Corps, and is a blatant 
attempt to take advantage of legitimate security concerns and end run 
the normal process and federal-local cost sharing for building road 
improvements. Instead of involving the U.S. Department of 
Transportation (USDOT), local entities such as the City of Folsom, 
California Department of Transportation (Caltrans), or the Army Corps 
of Engineers, which has already contemplated building a bridge in the 
area, H.R. 2301 brings in a completely unrelated agency into the 
process, the Bureau of Reclamation.
    Simply put, the Bureau of Reclamation is not in the business of 
building bridges. The stated mission of the Bureau of Reclamation is to 
``manage, develop, and protect water and related resources in an 
environmentally and economically sound manner in the interest of the 
American public.'' The Bureau is in the water supply business not the 
bridge-building business. Foisting responsibilities upon the Bureau 
that are outside of its core mission sets a terrible precedent and 
reduces the agency's effectiveness in the increasingly critical work of 
managing the West's water supply. This bridge work will compete with 
and potentially crowd out legitimate Bureau of Reclamation funding in 
the Energy and Water Appropriations bill.
    TCS recognizes that building a new bridge may be justified to 
reduce security concerns raised by having a bridge on the dam. We also 
recognize that a wider bridge may be needed, but the process 
established in this bill bypasses the very mechanisms that are in place 
to evaluate that need and address those concerns.
    Members of the Committee should know that H.R. 2301 clearly 
envisions more than replacing the bridge that currently traverses 
Folsom Dam. This bill would likely upgrade the bridge from two lanes to 
four lanes. USDOT has a process and formula to identify situations 
where the upgrade of a two-lane road to a four-lane road is justified. 
We believe that if local interests want more lanes or a substantially 
improved bridge, then the City of Folsom and the State of California in 
concert with the Highway Trust Fund are the proper sources for bridge 
enhancement design and funding. Funding should certainly not come from 
the General Treasury or Energy and Water Appropriations.
    Unfortunately, this bill completely avoids a discussion of non-
federal cost sharing or an analysis of traffic needs and instead foists 
the entire bill on the federal taxpayer. While security concerns may be 
a legitimate reason for federal funding, the bridge upgrade costs 
should be borne in the normal fashion by the local beneficiaries of 
bridge expansion.
    According to Congressman Doolittle's June 26, 2001 press release on 
H.R. 2301, ``The region's heavy reliance on the Folsom Dam Road means 
that even temporary closures can snarl traffic through Folsom, 
inconveniencing drivers and harming the local retail-based economy.'' 
Representative Doolittle added, ``It is clear that a permanent, full-
service bridge is needed to ensure greater transportation efficiency 
and commuter convenience.''
    Building a bridge to replace the one traversing Folsom Dam may 
potentially be tied to security concerns, but building an enhanced, 
four-lane bridge has never been attributed to security or safety. 
Instead, this upgrade from a two to four-lane bridge is tied to local 
economics and the convenience of the City of Folsom's citizens. The 
federal taxpayer should not be picking up the whole $85 million tab for 
``commuter convenience''.
    We cannot fathom the reasoning behind building an enhanced bridge 
entirely on the federal taxpayers' dime and then turning over ownership 
of the bridge to the City of Folsom. The City of Folsom and Caltrans 
must shoulder their portion of responsibility in this process. Instead, 
H.R. 2301 demands that the federal taxpayer shell out $85 million and 
then forces the government to turn the bridge over to a non-
contributing, non-federal entity.
    In closing, the Bureau of Reclamation should not be forced to 
deviate from its core mission by becoming a highway construction 
agency. Any bill authorizing construction of an improved Folsom bridge 
should strictly define federal and non-federal cost sharing. Such a 
bill should go through the normal highway authorization process, taking 
into account that the Army Corps of Engineers is already contemplating 
construction of a two-lane bridge. The replacement bridge planned by 
the Army Corps is estimated to cost $20 to $30 million compared to the 
$85 million price tag of H.R. 2301. The replacement bridge will 
alleviate the security concerns of having a bridge on Folsom Dam. 
Congress should not raid the coffers of agencies dependent on the 
energy and water appropriations to pay for the traffic convenience of a 
few local beneficiaries.
    Thank you again for opportunity to testify today and I would be 
happy to answer any questions you might have.
                                 ______
                                 
    Mr. Calvert. Mr. Steve Miklos, board member, Sacramento 
Area Council of Governments, State of California, you are 
recognized, sir.

   STATEMENT OF STEVE MIKLOS, BOARD MEMBER, SACRAMENTO AREA 
          COUNCIL OF GOVERNMENTS, STATE OF CALIFORNIA

    Mr. Miklos. Thank you, Mr. Chairman and members of the 
Committee. And again, a special thanks to Congressman Doolittle 
for his leadership in our region. And I would like to speak to 
you today as the former mayor and current city council member 
of the city of Folsom, and the former Chair and current board 
member of the Sacramento Area Council of Governments.
    I would also like, for the record, to be saying today that 
my written testimony should be entered, as well as Mayor 
Starsky's.
    Mr. Calvert. Without objection.
    Mr. Miklos. SACOG, it is affectionately known as: We are 
the coordinators of transportation planning issues within the 
Sacramento region. Our Sacramento region covers approximately 
six counties and 18 cities, with a population of almost two 
million people.
    Within our jurisdiction, we are not only responsible for 
planning and coordinating and funding of transportation; it 
also includes air quality, access to jobs, as well as a host of 
other things such as community design development and open 
space.
    My fellow SACOG board members share all the concerns raised 
by my current colleagues on this panel today regarding the 
current situation of Folsom Dam. I will limit my testimony, 
briefly reviewing some of the issues that are specific to 
SACOG.
    H.R. 2301 will help protect our freeways, our light rail, 
our local streets and regional transportation corridors, our 
rolling stock, and our transportation assets, from loss and 
damage due to massive flood. SACOG Resolution Number 42-2001, 
adopted while I served as Chair of SACOG board, expresses full 
regional support for Congressman Doolittle's legislation.
    That in itself needs to be emphasized again one more time. 
SACOG Resolution Number 42-2001 has the full, expressed support 
of the region's SACOG board, representing those six counties 
and 18 cities. That is not done on a regular basis. When you 
have 19 elected members sitting on a board, to get unanimous 
support for a resolution is very rare. And we accomplished that 
because the region recognizes the importance of this 
legislation.
    The approximately one million acre-feet of water suddenly 
released by a total dam failure would inundate much of Highway 
50, portions of Interstate 80, and portions of Interstate 5. 
And I will get to more details of that in a moment. But most 
importantly--pardon the pun--but it has a ripple effect on the 
rest of the region because of the reliance on those major 
arterials, as well as the Sacramento core and the region 
surrounding the capital.
    The I-5 inundation would have inestimable impacts on 
transportation statewide, given the depth of the flood waters, 
as expressed by my colleague, Mr. Niello. The likelihood of 
water receding is very slow, and I-5 is the main north-south 
transportation corridor stretching from the Mexican border to 
the Canadian border. It is important to note that there is no 
alternative route to the east, and the western alternative 
would be a re-route through the Bay Area. And if anyone is 
familiar with the San Francisco Bay Area, that is a traffic 
nightmare without any of these catastrophic failures.
    This is even more disturbing, given the resources expended 
over recent years to strengthen and widen some of our bridges, 
such as Watt Avenue and Sunrise Boulevard. We have taken major 
north-south regional transportation corridors and improved 
those, such as HOV lanes on Highway 50; some further 
improvements on Highway 80; additional interchanges at Sunrise 
Boulevard, Folsom Boulevard, East Bidwell Street. The city of 
Folsom has recently opened a $75 million bridge, that we paid 
for by ourselves. We have also contributed almost $11 million 
to other local improvements; knowing that the city bears a 
significant amount of the share of cross-through traffic 
between the four major employment centers within the SACOG 
region, such as Rockland, Roseville, El Dorado Hills, Rancho 
Cordova, the city of Folsom.
    And so therefore, I have to disagree with the 
representative from Taxpayers for Common Sense, because the 
city of Folsom alone has expended almost $90 million in local 
cost-sharing measures for regional transportation solutions.
    It seems that also, from SACOG's perspective, which was 
very apparent with the adoption of Resolution 2301 from SACOG, 
was that it was felt that a $20 million temporary bridge was 
certainly fiscally irresponsible, to construct a bridge and 
then tear it back down; that better money spent was a permanent 
solution.
    Folsom Dam Road must remain open until a new bridge is in 
place. I am not going to reiterate all of the things my 
colleagues have previously said. I think that has been well 
driven home. But what we do have to emphasize is the fact that 
we will have a million people come into our region within the 
next 20 years. And to put it in perspective, when the gate 
failed in 1995, we had 10,000 cars a day going across that dam. 
We now have 18,000 cars coming across that dam, 7 years later. 
You can imagine where the million people are going to be coming 
from, especially in the four employment centers.
    Mr. Chairman, members of the Committee, Mr. Doolittle, the 
Sacramento Area Council of Governments is grateful for the 
opportunity to testify today in support of H.R. 2301. We 
believe H.R. 2301 addresses one of the most important of these 
new priorities, in light of the likely consequences of the 
catastrophic failure of the dam. We urge you and your 
Subcommittee to support H.R. 2301 and work toward its speedy 
passage. And I would be happy to answer any questions you may 
have today.
    [The prepared statement of Mr. Miklos follows:]

  Statement of The Honorable Steve Miklos, Sacramento Area Council of 
                              Governments

    Mr. Chairman and distinguished members of the Committee, my name is 
Steve Miklos, and I am the former mayor and current councilmember for 
the City of Folsom, California. I also am past chair and currently 
serve on the Board of Directors of the Sacramento Area Council of 
Governments, and it is in my capacity as past chair and current on the 
SACOG boardmember that I appear today in support of H.R. 2301, a bill 
to authorize the Secretary of the Interior to construct a bridge on 
Federal land west of and adjacent to Folsom Dam in California. I 
appreciate the opportunity to speak today regarding this legislation.
    I thank this Subcommittee for holding this hearing today. Briefly, 
the Sacramento Area Council of Governments--also known as SACOG--
coordinates transportation planning and funding for the entire 
Sacramento region covering six counties and eighteen cities and serving 
a population of 1,936,006 (one million, nine hundred thirty-six 
thousand and six) according to the 2000 Census.
    SACOG appreciates your concern and commitment to ensuring our 
region's safety and economic security. This is truly one of those 
projects where we cannot do what needs to be done without federal 
involvement, and we thank you for taking up H.R. 2301 so expeditiously.
    We also appreciate Congressman John Doolittle's leadership on this 
legislation. His legislation will secure the dam, our vital regional 
transportation infrastructure, and will do so in an economically 
efficient manner. Congressman Doolittle has courageously stood by his 
principles--even while under heavy fire--for over a decade, and our 
City and our region are fortunate to have him represent our interests 
in Washington.
    My fellow SACOG boardmembers share all of the concerns raised by my 
colleagues on this panel today regarding the current situation at 
Folsom Dam. I will limit my testimony to briefly reviewing some of the 
major impacts to our region's transportation infrastructure of a dam 
failure caused by a terrorist act. H.R. 2301 is urgently needed to 
ensure the security of Folsom Dam and to protect our investment in our 
transportation system.
    H.R. 2301 will help ensure the physical and economic security of 
our citizenry. The bill will do so, in part, by protecting our 
freeways, our light rail, our local streets and regional transportation 
corridors, our rolling stock, and our other transportation assets from 
loss and damage due to a massive flood. I also wish to submit for the 
record today a copy of SACOG Resolution Number 42-2001, adopted while I 
served as chair of the SACOG board, expressing full support for 
Congressman Doolittle's legislation.
    Modeling and contour maps give us a notion of where the flood 
waters are likely to rage, where they will flow, where they will sit 
for days, weeks, or even months before receding. What modeling and maps 
cannot tell us is how much the devastation will cost in terms of repair 
and replacement to our transportation infrastructure, and I believe it 
is fruitless to attempt to accurately quantify the impact. It is just 
too big. It is clear that virtually all of our major transportation 
infrastructure stands in the way of the flood waters, and it is 
unlikely that much will be left standing or serviceable after such a 
deluge. In spite of the foregoing, I will offer a few points for your 
consideration in an attempt to put the losses and impacts into some 
kind of perspective.
    The 976,955 acre feet of water suddenly released by total dam 
failure would inundate much of Highway 50, portions of Interstate 80, 
portions of Interstate 5, as well as dozens of other regional 
transportation corridors. The Interstate 5 inundation would have 
inestimable impacts on transportation statewide, given the depth of the 
flood waters, the likelihood of water receding very slowly, and the 
fact that I-5 is the main north-south transportation corridor 
stretching from the Mexican border to the Canadian border. It is 
important to note that there is no alternative route to the east, and 
the western alternative would re-route large amounts of traffic into 
the Bay Area freeway system. The impact on that system, already in 
gridlock for much of the day, is unthinkable.
    All of our bridges crossing the American River downstream from the 
dam are likely to be damaged or destroyed by a flood caused by a 
massive failure at Folsom Dam. This is even more disturbing given the 
resources expended over recent years to strengthen and widen several of 
the bridges, including ongoing work at Watt Avenue, a major north-south 
regional transportation corridor. In fact, the City of Folsom's 
recently-opened new bridge cost over $75 million alone, and that 
bridge, along with two others within City limits, are directly in the 
path of what would likely be a tidal wave of water. It is a sobering 
and futile exercise to attempt to add up the cost of repairing and 
replacing just the bridges damaged and destroyed by such an event.
    Also in the way of flood waters stand our airports, our light rail 
system, our Regional Transit's rolling stock and maintenance 
facilities, and private vehicles. In the interest of time I will not go 
into detail regarding these facilities and assets, but the subcommittee 
can surely recognize that the cost to repair, replace, and reopen these 
facilities and assets too large to contemplate.
    My comments thus far relate the general scope and cost of a flood 
caused by a failure at Folsom Dam. In short, the scope and cost would 
be enormous, and it should be a national priority to remove traffic 
from Folsom Dam Road. But I also believe Folsom Dam Road must remain 
open until the new bridge is in place. Folsom Dam Road is the 
easternmost river crossing downstream from the major river forks. It 
serves businesses and residents traveling between major employment 
centers in El Dorado County, eastern Sacramento County, and Placer 
County. Approximately 17,000 vehicles a day cross the dam--even with 
security limitations on the types of vehicles allowed on the road. The 
dam crossing is a major regional traffic connector providing access 
between jobs and housing in the three different counties. Some of our 
region's largest industrial and commercial employers use Folsom Dam 
Road, including Intel, Hewlett-Packard, and Blue Cross. And especially 
during the summer months, Folsom Dam Road is an indispensable crossing 
for visitors to Folsom Lake--the most visited state park in the State 
of California--and the region's parks and recreation facilities.
    The crossing at Folsom Dam must be moved off the dam, but the 
impact of doing so without a replacement bridge in place would be 
devastating to the local and regional economy. H.R. 2301 is the 
necessary step in removing traffic from the dam, but we must also 
recognize the existing traffic patterns in our region. Folsom Dam Road 
is an inadequate, but essential, transportation artery between the 
three counties. It is extraordinarily important for local circulation. 
Just as there is a balance between airport security measures and moving 
people efficiently onto departing flights, so too there must be a 
reasonable security system put in place to protect the dam while 
allowing the public to cross the dam until the new bridge is completed.
    As outlined by my colleague Mayor Starsky, government efficiency 
mandates that the bridge should be a full-service, four-lane bridge. As 
Mayor Starsky argued, it would be extraordinarily wasteful to build a 
two-lane bridge when we know that two-lanes was wholly inadequate years 
ago. H.R. 2301 requires the bridge to be designed with appropriate 
sizing and linkages to support present and future traffic flow 
requirements for the City of Folsom. Present and future traffic flows 
require a four-lane bridge--at a minimum.
    Mr. Chairman, the Sacramento Area Council of Governments is 
grateful for the opportunity to testify in support of H.R. 2301. We 
understand that there are many new priorities in our nation now that we 
have been awakened to new threats to our national security. We believe 
H.R. 2301 addresses one of the most important of these new priorities 
in light of the likely consequences of the catastrophic failure of the 
dam. We urge you and your subcommittee to support H.R. 2301 and work 
towards its speedy passage. I would be happy to answer any questions 
you may have, and I thank you for the opportunity to testify today.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman. Shortly after the 
tragedy of September 11th, several of us met, decided what 
needed to be done on an emergency basis throughout the United 
States. And one of those things that this Committee did is pass 
legislation--which, by the way, the Bureau of Reclamation is 
now authorized to reimburse communities such as the Cities of 
Folsom and Sacramento--for law enforcement services that are 
provided to protect public facilities that are owned by the 
Bureau of Reclamation and other facilities.
    And the reason we passed that, in almost record time--and 
around here it is difficult to pass things at a very rapid 
rate; and we not only passed that, it was signed into law, I 
believe, within 45 days of September 11--is because, obviously, 
there was an emergency. And to my friend from the Taxpayers for 
Common Sense, I would say that there is a reason that we have a 
U.S. Congress, and that is to make decisions based upon special 
circumstances. And if the circumstances of September 11th 
aren't special, I don't know what is. And especially, I don't 
know of anyone in the local communities that are elected that 
are opposed to building this bridge, because it may be we may 
have to close traffic on that bridge, as we have already for 
truck traffic, and that bridge will need to be replaced. And 
this is a special circumstance. And there is a Federal nexus 
here, and we have a responsibility, in my mind, to do 
something.
    That is my editorial comment. And I will go on and ask a 
couple of quick questions. In the prior testimony, it was 
mentioned that there were a number of roadways that were in 
existence prior to the construction of this dam. I know that 
probably none of you were around at the time in this life, so I 
would ask, don't you believe that the Federal Government has 
some responsibility to provide for alternate roads, if in fact 
this has to be closed permanently?
    Mr. Miklos. Mr. Chairman, if I may answer that, back in 
July 1995, I was on the city council, and I was appointed as 
the lead, from the then-Mayor Bob Holerus, to look into the 
issue when the gate failed at Folsom Dam. And with the 
assistance of Congressman Doolittle, we went way back into the 
records and dug up the actual authorization appropriation bills 
for Folsom Dam. And in that authorization it clearly stated 
that they were supposed to provide crossings equal to, or 
greater than, the number that were flooded.
    And in answer to your previous question, there are actually 
two crossings. When the water is real low, such as it was last 
year, you can actually still see two of them, when the water is 
that low. The other two, it is my understanding, were actually 
demolished at the time.
    So in answer to your question, I absolutely believe, as I 
testified in March 1996 in this exact room--and I still believe 
so today--that the Federal Government is responsible for 
replacing that crossing. And I agreed with the Bureau, back 
even in March of '96 when I testified, that we fully support 
being off the top of that dam. It is inconvenient not only to 
us; it is an inconvenience for the region. We fully support the 
total operation and maintenance at will for the Bureau to 
construct the businesses they need to construct and maintain 
that dam, so we don't have another catastrophic failure of the 
gate or, worse yet, the whole entire dam.
    So in response to your question, yes, we do believe they 
are responsible.
    Mr. Calvert. Now, let me ask, those who are elected, people 
who represent the city of Folsom on the city council, do you 
know of any of your city council members that are opposed to a 
bridge to replace this?
    Mr. Miklos. During my term of 4 years as mayor did we ever 
have a resolution other than full support of a new replacement 
bridge.
    Mr. Calvert. The Board of Supervisors in Sacramento County?
    Mr. Niello. The Board of Supervisors had no formal 
resolution on the matter, but in discussions that I have had I 
know of no one who is opposed to building this bridge.
    Mr. Calvert. Now, maybe, Ms. Roder, do you know of any 
elected officials that are opposed to this?
    Ms. Roder. No, sir, I do not. And I would not say my 
organization is opposed to moving a bridge off of the dam at 
all. I am just saying that we need to have Federal and local 
cost-sharing measures put into place to do that. And the fact 
that there is an Army Corps of Engineers plan that is in place, 
that they are planning on building a bridge, then if we are 
going to enhance the bridge from what is currently on there, 
sir, then we need to have some local cost sharing with that.
    Mr. Calvert. You know, and that is certainly an appropriate 
position. But from my perspective--and California is the 
largest donor state in the Union--I have always strongly felt 
that we are not getting the types of infrastructure 
improvements within our state that we pay for. So we have a 
difference of opinion here.
    And with that, I will recognize Mr. Doolittle for any 
questions he may ask, and ask Mr. Otter if he could Chair the 
meeting for the balance of the meeting. I have to go to an 
Armed Services Committee meeting that I must attend.
    Mr. Doolittle. Mr. Chairman, I thank you very much. And my 
questions will be brief. And I appreciate, really, the courtesy 
extended us here to discuss this issue.
    Well, I just want to focus on a couple of things. There 
were eight lanes before the reservoir was built. It was built 
by the Federal Government, and the impoundment was caused by 
the construction of the Folsom Dam. So we lost eight lanes 
there. There are two lanes on top of Folsom Dam, and when those 
are cutoff to public access that will be ten lanes. It does not 
seem unreasonable to me that the Federal Government ought to at 
least give us four lanes to replace the ten that were taken.
    I also point out when I hear this discussion, because it 
sounds so reasonable when you talk about local share, but you 
have to remember that the city of Folsom very recently, within 
the last--I forget when it is--couple of years, constructed at 
totally non-Federal expense a new bridge across the river. So 
there is certainly a local effort being made here to meet the 
local transportation needs. It is not like this city is coming 
hat-in-hand and asking the Federal Government to meet the local 
transportation needs. But for the existence of Folsom Dam, 
there wouldn't be a problem in this regard. So it seems 
perfectly reasonable to me that the Federal Government should 
bear this share.
    And I just wanted to make that observation, and to thank 
all of our witnesses who have gone to great effort to get back 
here to offer this testimony.
    Mr. Otter. [Presiding.] Thank you, Mr. Doolittle.
    With my apologies to the panel, I would like to ask Mr. 
Limbaugh and Mr. Starsky to come back up to the table. So if 
there are any additional questions, you also have an 
opportunity to respond to those questions.
    I have a couple of questions. Ms. Roder, you mentioned that 
the potential of a flood now with the increase to the size of 
the dam of 7 feet would be one in 213. Can I conclude from that 
that there is one chance in 213 years that there will be a 
flood?
    Ms. Roder. I believe, sir, that it is in any given year 
there is a one in 213 chance that the city of Sacramento would 
flood.
    Mr. Otter. And what is the chance now?
    Ms. Roder. I believe it is, according to what the Army 
Corps recently studied, a one-in-85 chance in any given year 
for the city of Sacramento to experience a flood.
    Mr. Otter. And in your written testimony, as well as your 
verbal testimony before the Committee, you offered other 
agencies that had been contacted, or other agencies that should 
be responsible for this. Did your group look into the obvious 
advantages for FEMA; inasmuch as their exposure would be 
reduced by three times, the potential flood damage? And 
couldn't FEMA then also participate in this extra 7 feet of 
water protection, I guess, from flood damage?
    Ms. Roder. Honestly, sir, I do not know if FEMA has been at 
all involved in the flood control issues related to this. I 
know that this is envisioned to be done by the Army Corps of 
Engineers.
    Mr. Otter. Any other member of the panel, have you reviewed 
the possibility of FEMA participating in the benefits of this, 
and therefore the cost?
    Mr. Niello. As a member of the flood control agency board, 
I am not aware of any such discussions that have taken place.
    Mr. Otter. Well, let me ask you, Mr. Niello, wouldn't that 
be a conclusion; that the beneficiaries ought to be engaged at 
least in the cost of that from which they are going to benefit?
    Mr. Niello. Well, that is very difficult logic to argue 
with. But that perhaps might be modified by whatever customs 
are the case with Federal bureaucracy.
    Mr. Otter. Well, I have only been here a year and 3 months, 
or 4 months, myself, so I am not aware. The last thing you want 
to expect out of us, I suspect, is certainty, or any type of 
continuity.
    But I can see the need for it. I can also address, at least 
in part, the Taxpayers for Common Sense, their approach to it; 
and I don't disagree. The interesting thing is that I haven't 
heard anything from anybody, or read anything from anybody, 
that would disagree that this is needed. Does anybody disagree 
that this is needed?
    [No response.]
    Mr. Otter. So then wouldn't the reasonable response from us 
be, if not Mr. Doolittle's actual piece of legislation 
verbatim, but to look for an answer to this and get the 
participants and the stakeholders in this that will benefit the 
most, including those that perhaps we haven't mentioned, like 
potential irrigators? I don't know, my apologies to the panel. 
Is this only used for flood control?
    Mr. Doolittle. Well, maybe we have injected a note of 
confusion in this, Mr. Chairman, because there are two separate 
things. One is this bridge; but the other then is a separate 
flood control proposal being advanced--and not being advanced 
by this bill; in fact, I am totally opposed to it--to raise 
Folsom Dam 7 feet. Folsom Dam for this purpose is not just the 
concrete structure itself, but is some 21 miles of levies 
surrounding the dam; by raising that 7 feet, as to provide 
additional flood protection. But that issue is not addressed by 
this bill, and is really totally separate.
    Mr. Otter. All right. My apologies to you, Mr. Doolittle, 
and then also the panel; for I did mix the two issues up. We 
from Idaho have a tendency to do that once in a while.
    [Laughter.]
    Mr. Otter. I would like to pursue this, Mr. Limbaugh, in 
your testimony. Is it a requirement when the Bureau of 
Reclamation engages in the activity of construction of a dam or 
something like that, to in fact replace all the roads? And were 
all the roads replaced for traffic and everything when Folsom 
was built?
    Mr. Limbaugh. Mr. Chairman, I am not aware of that. And 
that was one of the questions that was asked that I get back to 
the Committee on. And I would certainly defer to that answer in 
this light. I think every situation is, obviously, different. 
And the laws basically speak for themselves in this instance, I 
would think. And so we are going to do some research and get 
back to the Committee on that.
    Mr. Otter. I would appreciate that. And I want to make as 
part of the permanent record that that request be fulfilled, 
because I think that is important.
    I also would like an expression from the Bureau of 
Reclamation as to whether or not the Bureau of Reclamation 
feels it has a fiduciary responsibility if, in the 
modifications of either the operation or anything else having 
to do with the dam or the necessity for that, whether or not it 
feels that it has a fiduciary responsibility in light of 
previous agreements, in light of previous promises for the 
construction of that facility, as to whether or not they do 
enjoy an obligation to replace those transportation routes or 
opportunities?
    Mr. Limbaugh. Well, I guess, Mr. Chairman, I would have to 
again defer to the answer that we are going to provide to the 
Committee, because this facility was built by the Corps and 
then given to the Bureau. And we certainly want to abide by any 
laws of Congress that would put us in a position of having to 
do things, but we are just not certain about that.
    One other comment is that we have basically proposed to 
work with all of the folks here to try to strike some kind of a 
position that we can all move forward and get this project 
done. And I think that is really the thrust of our testimony 
today, is to work with the bill's sponsor and with everyone 
concerned to find out just what those responsibilities are, 
where they lie.
    And again, I think I would like to fall back on the answer 
that we provide this Committee, in terms of the 
responsibilities inherent in the legislation that authorized 
this project.
    Mr. Otter. Thank you, Mr. Limbaugh. My time has expired, 
but I certainly would encourage all of you sitting at that 
table, and any other stakeholder that you can find, to try to 
settle that outside this room. And I would work hard with Mr. 
Doolittle to help provide that solution outside this room. 
Because I can guarantee you, it will be much easier there than 
it will be here. That has been my experience.
    Mr. Doolittle?
    Mr. Doolittle. Thank you, Mr. Chairman, I have no further 
questions.
    Mr. Otter. All right. Well, thank you. And I want to thank 
the witnesses, and also the members that were here. And the 
members of this Subcommittee may have some additional questions 
for the witnesses. And we will ask you to respond to those in 
writing, besides the one that we have already asked you to 
respond to on the record. The hearing record will be held open 
until April 24th.
    If there is no further business, this meeting has come to 
an end. Thank you.
    Mr. Niello. Thank you, Mr. Chairman.
    [Whereupon, at 3:13 p.m., the Subcommittee was adjourned.]
    [A statement submitted for the record by John Keys 
follows:]

   Statement of John Keys, Commissioner, Bureau of Reclamation, U.S. 
                Department of the Interior, on H.R. 2301

    I regret that I cannot be in Washington, D.C., today to comment on 
H.R. 2301. The Department of the Interior and the Bureau of Reclamation 
recognize the importance of the construction of a new bridge at Folsom 
Dam to ease traffic and security problems there and strongly support 
closure of the current roadway across the top of the dam. While 
Interior and Reclamation have concerns over funding and budgetary 
issues related to H.R. 2301, Congressman Doolittle has done much to 
seek solutions and keep this issue at the forefront.
    Several incidents in recent years have contributed to the 
importance of a new bridge--a 1995 spillway gate failure, the Oklahoma 
City Bombing, and the September 11 terrorist attacks. Keeping our dams 
safe and secure is one of Reclamation's top priorities.
    I commend Congressman Doolittle's foresight and leadership in 
addressing the persistent traffic problems and security issues at 
Folsom Dam that are both a burden and a hindrance to the citizens of 
the area. I look forward to working with Congressman Doolittle, the 
Subcommittee, City of Folsom, Sacramento Area Council of Governments 
and other agencies to find innovative ways to resolve the funding and 
authority issues that surround the building of a new bridge at Folsom 
Dam.

                                   - 

</pre></body></html>
